<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


<DOC>
[106th Congress House Hearings]
[From the U.S. Government Printing Office via GPO Access]
[DOCID: f:63663.wais]




                              MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 2, 2000

                               __________

                           Serial No. 106-10


                               <snowflake>


           Printed for the use of the Committee on the Budget

                                __________

                     U.S. GOVERNMENT PRINTING OFFICE
63-663cc                     WASHINGTON : 2000



                        COMMITTEE ON THE BUDGET

                     JOHN R. KASICH, Ohio, Chairman
SAXBY CHAMBLISS, Georgia,            JOHN M. SPRATT, Jr., South 
  Speaker's Designee                     Carolina,
CHRISTOPHER SHAYS, Connecticut         Ranking Minority Member
WALLY HERGER, California             JIM McDERMOTT, Washington,
BOB FRANKS, New Jersey                 Leadership Designee
NICK SMITH, Michigan                 LYNN N. RIVERS, Michigan
JIM NUSSLE, Iowa                     BENNIE G. THOMPSON, Mississippi
PETER HOEKSTRA, Michigan             DAVID MINGE, Minnesota
GEORGE P. RADANOVICH, California     KEN BENTSEN, Texas
CHARLES F. BASS, New Hampshire       JIM DAVIS, Florida
GIL GUTKNECHT, Minnesota             ROBERT A. WEYGAND, Rhode Island
VAN HILLEARY, Tennessee              EVA M. CLAYTON, North Carolina
JOHN E. SUNUNU, New Hampshire        DAVID E. PRICE, North Carolina
JOSEPH PITTS, Pennsylvania           EDWARD J. MARKEY, Massachusetts
JOE KNOLLENBERG, Michigan            GERALD D. KLECZKA, Wisconsin
MAC THORNBERRY, Texas                BOB CLEMENT, Tennessee
JIM RYUN, Kansas                     JAMES P. MORAN, Virginia
MAC COLLINS, Georgia                 DARLENE HOOLEY, Oregon
ZACH WAMP, Tennessee                 KEN LUCAS, Kentucky
MARK GREEN, Wisconsin                RUSH D. HOLT, New Jersey
ERNIE FLETCHER, Kentucky             JOSEPH M. HOEFFEL III, 
GARY MILLER, California                  Pennsylvania
PAUL RYAN, Wisconsin                 TAMMY BALDWIN, Wisconsin
PAT TOOMEY, Pennsylvania

                           Professional Staff

                    Wayne T. Struble, Staff Director
       Thomas S. Kahn, Minority Staff Director and Chief Counsel



                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, March 2, 2000....................     1
Statement of:
    Hon. Ike Skelton, a Representative in Congress from the State 
      of Missouri................................................     1
    Hon. Dana Rohrabacher, a Representative in Congress from the 
      State of California........................................    11
    Hon. Bob Filner, a Representative in Congress from the State 
      of California..............................................    38
    Hon. Dennis J. Kucinich, a Representative in Congress from 
      the State of Ohio..........................................    41
Prepared statement of:
    Mr. Skelton..................................................     3
    Hon. George W. Gekas, a Representative in Congress from the 
      State of Pennsylvania......................................    10
    Hon. Paul E. Kanjorski, a Representative in Congress from the 
      State of Pennsylvania......................................    10
    Mr. Rohrabacher..............................................    16
    Mr. Filner...................................................    17
        Executive Summary of the Independent Budget..............    19
    Mr. Kucinich.................................................    43


 
                              MEMBERS' DAY

                              ----------                              


                        THURSDAY, MARCH 2, 2000

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m. in room 
210, Cannon House Office Building, Hon. Saxby Chambliss 
presiding.
    Members present: Representatives Chambliss, Collins, Bass, 
Fletcher, Spratt, Bentsen, Moran.
    Mr. Chambliss [presiding]. Our hearing will come to order. 
Today is what we refer to as ``Members' Day'' before the Budget 
Committee. This is a portion of the budget process that is 
required by our budget law. And unfortunately, due to the 
rescheduling of House business, some of our folks who were 
scheduled to be here today have decided they would go home, I 
guess, rather than being here. So we are going to proceed 
anyway.
    We have Members of Congress here today to present their 
views because they know this is the most important committee on 
the Hill. And folks like Ike Skelton know how important it is 
to be here to talk to us about defense. Ike, we are pleased to 
have you here. You are a great friend of Members on both sides 
of the aisle, particularly on the issue of defense. We are very 
pleased to have you here.
    At this time before I turn over to you, I will turn it over 
to my colleague, Mr. Spratt, for any comments he has.
    Mr. Spratt. Mr. Chairman, I would like it if you could tell 
us officially what the plan and schedule for markup is next 
week.
    Mr. Chambliss. Well, I do not think anybody knows right 
now, very honestly. I don't think that we are going to mark 
next week.
    As of late yesterday, yesterday afternoon, there was no 
definite schedule about the markup next week. Originally we 
were scheduled for Wednesday. Frankly, I do not see how we can 
do that because we do not come back in until Wednesday.
    Mr. Spratt. That was my concern too. We would appreciate as 
much notice as possible when the markup is to be held.
    Mr. Chambliss. That is a reasonable request, and we will 
accommodate you.
    Mr. Skelton, we are glad to have you, and we will turn it 
over to you.

STATEMENT OF THE HON. IKE SKELTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Skelton. Mr. Chairman, thank you very much and Mr. 
Spratt. I appreciate you allowing me to be with you this 
morning, members of the Budget Committee. I appear before you 
today to present my views about national security accounts of 
the Federal budget for fiscal year 2001.
    In many respects the administration defense budget this 
year is a good news story. The total overall figure is 
approximately $305 billion in budget authority for national 
security activities in fiscal year 2001 which represents a real 
inflation adjusted increase of about 1.3 percent in the defense 
accounts over last year's total or about $12.2 billion more 
than the fiscal year 2000 funding level if you include the 
proposed $2.3 billion supplemental appropriation for Kosovo. 
The defense budget includes about $292 billion for the 
Department of Defense and $13 billion for nuclear weapons 
related activities in DOE. While $300 billion seems like a lot 
of money and it is, I nevertheless have concerns that the 
budget is not adequate to meet our defense requirements in 
three key areas: First, procurement; second, health care; and 
third, readiness.
    Although this year's defense budget includes some $60 
billion for procurement accounts, the accounts through which we 
buy major weapons systems, the funding level comes after years 
of those accounts being underfunded relative to the large 
military requirements. This year, Mr. Chairman, former 
Secretary of Defense Bill Perry testified before our committee, 
the Armed Services Committee, that the procurement funding in 
this year's budget is at least $10 billion below what we need 
to execute our national military strategy of being prepared to 
fight two major wars. The Chiefs in the military services have 
told us the same thing.
    With respect to health care, the budget includes $11.6 
billion dollars for our defense health program, which is $450 
million above the fiscal year 2000 level. Because of a 
combination of fewer on-base medical facilities as a result of 
base closures and the aging retiring population, providing 
health care for military retirees has become a pressing 
problem. Several military health care bills have been 
introduced.
    No one disagrees that we must keep faith with the service 
members, their families, and retirees who have served our 
country at such great sacrifice. The fiscal reality is that 
providing health care to aging retirees is very expensive. The 
President's budget adequately provides for active duty service 
members and their families, but it does not address health care 
for retirees.
    I urge this committee to provide the resources to enable 
the Armed Services Committee to meaningfully reform the health 
care system without robbing other accounts within the defense 
budget.
    Third, military readiness is also a source for concern. 
With ongoing deployments in the Middle East, Bosnia, Kosovo, 
the operational tempo for our forces have been steadily rising. 
The operations and readiness accounts that fund training and 
education activities, exercises, base and range maintenance, 
and military operations are critical to the Defense 
Department's ability to perform its missions and protect our 
national security.
    Unfortunately these accounts suffered last year. The 
decision to apply .38 percent across the board cut last year to 
all fiscal year 2000 appropriations did not affect military 
personnel accounts. They were exempted. As a result, DOD's 
operations and maintenance accounts were reduced 
disproportionately by about $500 million. The total O & M 
appropriation was about $600 million below the amount the 
President requested in last year's budget. We need to do better 
this year so that our military readiness does not suffer.
    Mr. Chairman, the Armed Services Committee's ability to 
authorize the programs necessary to protect our national 
security interests depends on having sufficient resources. With 
the caveats I just mentioned the President's budget this year 
does a good job of enabling us to meet our challenges. I hope 
the Budget Committee will be able to agree to a budget 
resolution that provides enough funding for us to address all 
of our priority concerns, especially those three, Mr. Chairman, 
that I mentioned.
    I appreciate the opportunity to express my views. I look 
forward to working with the members of the budget committee in 
the days ahead.
    I might add this post-script, Mr. Chairman. I have had the 
opportunity to visit with young men and young women at Army 
posts, military bases here in our country in recent months and 
also bases and posts overseas. All of us can be very, very 
proud of the young men and young women who wear the American 
uniform.
    But I tell you, Mr. Chairman, Mr. Spratt, we are wearing 
them out. We are wearing out the young men and women in 
uniform. The operational tempo in most cases is just 
unbelievable. I just think we have to do something about it. 
The only relief comes in this budget committee.
    For instance, between 1945 and 1990, a period of 45 years, 
the American military had a total of 50 deployments in 45 
years. 1990 to date, a period of 10 years, the American 
military has had a total of 60 deployments. We are wearing them 
out.
    So I think it is all the more important for us to show them 
that we support them with procurement, with health care, and 
with readiness dollars so they can do the best job possible for 
our country.
    Thank you.
    [The prepared statement of Ike Skelton follows:]

 Prepared Statement of Hon. Ike Skelton, a Representative in Congress 
                       From the State of Missouri

    Thank you. Mr. Chairman, Mr. Spratt, and members of the Budget 
Committee, I appear before you today to present my views about the 
national security accounts of the Federal budget for fiscal year 2001.
    In many respects, the Administration's defense budget this year is 
a good news story. The overall total of approximately $305 billion in 
budget authority for national security activities in fiscal year 2001 
represents a real, inflation-adjusted increase of about 1.3 percent in 
the defense accounts over last year's total--or about $12.2 billion 
more than the fiscal year 2000 funding level if you include the 
proposed $2.3 billion supplemental appropriation for Kosovo. The 
defense budget includes about $292 billion for the Department of 
Defense and $13 billion for nuclear weapons related activities of the 
Department of Energy.
    While $300 billion seems like a lot of money and it is, I 
nevertheless have concerns that the budget is not adequate to meet our 
defense requirements in three key areas--procurement, health care, and 
readiness.
    Although this year's defense budget includes some $60 billion for 
procurement accounts--the accounts through which we buy major weapons 
systems--this funding level comes after years during which those 
accounts were underfunded relative to acknowledged military 
requirements. This year, former Secretary of Defense Bill Perry 
testified before the Armed Services Committee that procurement funding 
in this year's budget is at least $10 billion below what we need to 
execute our national military strategy of being prepared to fight two 
major wars. The chiefs of the military services have told us the same 
thing.
    With respect to health care, the budget includes $11.6 billion for 
the Defense Health Program, which is $450 million above the fiscal year 
2000 level. However, because of a combination of fewer on-base medical 
facilities (as a result of base closures) and an aging military retiree 
population, providing health care for military retirees has become a 
pressing problem. Several military health care bills have been 
introduced, and no one disagrees that we must keep faith with service 
members, their families and retirees who have served our country at 
such great sacrifice. The fiscal reality is that providing health care 
to aging retirees is very expensive. The president's budget adequately 
provides for active duty service members and their families but does 
not address health care for retirees. I urge this committee to provide 
the resources to enable the Armed Services Committee to meaningfully 
reform the military health care system without robbing other accounts 
within the defense budget.
    Military readiness is also a source of concern. With ongoing 
deployments in the Middle East, Bosnia and Kosovo, the operational 
tempo for our forces has been steadily rising. The operations and 
maintenance accounts--the readiness accounts that fund training and 
education activities, exercises, base and range maintenance, and 
military operations--are critical to the Defense Department's ability 
to perform its missions and protect our national security. 
Unfortunately, these accounts suffered last year. The decision to apply 
a .38 percent across-the-board cut to all fiscal year 2000 
appropriations did not affect military personnel accounts--they were 
exempted. As a result, DOD's operations and maintenance accounts were 
reduced disproportionately, by about $500 million, and the total O & M 
appropriation was about $600 million below the amount the president 
requested in last year's budget. We need to do better this year so that 
our military readiness does not suffer.
    Mr. Chairman, the Armed Services Committee's ability to authorize 
the programs necessary to protect our national security interests 
depends on having sufficient resources. With the caveats I just 
mentioned, the president's budget this year does a good job of enabling 
us to meet our challenges. I hope the Budget Committee will be able to 
agree to a budget resolution that provides enough funding for us to 
address all of our priority concerns.
    I appreciate the opportunity to express my views, and I look 
forward to working with all the members of the Budget Committee in the 
months ahead. Thank you.

    Mr. Chambliss. Thank you, Ike. Just as an add-on to what 
you said, I likewise have had the opportunity to visit with 
folks on bases, had the opportunity to visit with folks all 
over the world. I am finding out the same thing as you and I 
were talking about earlier. It is not only with the active 
forces but our Guard and Reserve folks are just worn thin. It 
seems that we are continually calling on the Guard and Reserve 
more and more. As a result, it is not only hurting our morale 
but hurting our recruiting within the Guard and Reserve in 
addition to the problems that we are having in recruiting and 
retention in the active force.
    Let me just make sure for the record that we get these 
numbers right. Last year our fiscal year 2000 budget called for 
$293 billion in Defense Department spending. The President has 
come in with a request this year of $305 billion.
    Mr. Skelton. That is correct. My figures are $292 billion 
for Department of Defense and 305 this year. That excludes the 
DOE.
    Mr. Chambliss. Two hundred ninety-two and the President 
requested 305. In addition to that, the service Chiefs 
testified 2 weeks ago that their underfunded requirements are 
approximately $16 billion in addition.
    Mr. Skelton. That is correct. If you add all four service 
unfunded requirements, that is correct.
    Mr. Chambliss. Thanks. Mr. Spratt.
    Mr. Spratt. Mr. Skelton, if you were to get the $10 
billion, how would it be distributed?
    Mr. Skelton. In the procurement account?
    Mr. Spratt. Yes, sir.
    Mr. Skelton. A lot of it would have to go to the necessary 
spare parts. Young people do not mind working in bad 
conditions. If they do not have spare parts to fix the 
helicopters or whatever they do, a lot of that would help 
immensely.
    Mr. Spratt. Spare parts is not going to new procurement, 
more in the category of O&M rather than R&D and procurement; is 
that correct?
    Mr. Skelton. You could be correct, yes, sir. There are 
various major weapons systems. I am concerned personally that 
if we do not ramp up the ship building in our country, we are 
going to find ourselves as a 200 ship Navy. We are 300 ships 
right now. You recall when we were doing our best to have a 600 
ship Navy. When we get down to a 200 ship Navy, when they say 
America go home, we will go home because we cannot cover the 
waterfront as we are now.
    There are several major weapons systems. We need to upgrade 
the B-2 to keep that going. As you know, they have done an 
excellent job. There is a continued need for a Navy aircraft. 
The Air Force, of course, wants the F-22. The Army has come out 
with a transition proposal which will end up purchasing--we do 
not know what yet, but a type of lighter vehicle. Whether they 
are tracked or wheeled vehicle, we are not sure. That of course 
is going to cost a great deal of money.
    Mr. Spratt. Mr. Abercrombie has proposed a Medicare 
subvention, use of Medicare at military health treatment 
facilities. Do we have an estimate on the cost of his bill yet?
    Mr. Skelton. Yes, for all but two portions of it, Mr. 
Spratt. The cost on the majority minus those two portions is 
$910 million. If you really want a bottom line figure, the best 
I can give you is a fair estimate of a minimum of $2 billion 
overall. I would think that would cover the majority. We were 
unable to cost out those two areas which are fuzzy in a never-
never land until you actually run the programs. I would judge 
$2 billion would be sufficient.
    Mr. Spratt. Thank you very much.
    Mr. Chambliss. Mr. Collins. Mr. Moran.
    Mr. Moran. Mr. Skelton, how do you feel about some of the 
military health care proposals that have been more inclusive, 
for example, offering the Federal employees health benefits 
plan to all military retirees who lose their health coverage 
after they turn 65?
    Mr. Skelton. As was mentioned a few moments ago, I am a 
principal cosponsor with Mr. Abercrombie on his bill. That is 
one of the two areas in our bill that we cannot cost out. We 
have not been able to cost that out. What that does is that 
continues the pilot program, and those that have bought into it 
are guaranteed that it will not be cut off in the future.
    The problem with it is that to join that, people have to 
write a check for about $1600. I think that has caused--plus 
the fact they did not know it was going to be a permanent 
thing, which we reviewed in our legislation, has caused the 
project or demonstration program, whichever you want to call 
it, not to be fully utilized. I think we might get at it in 
another way through the subvention. We also have benefits--a 
lot of money is involved--benefits for prescription drugs by 
mail or otherwise which would be very, very expensive.
    Mr. Moran. I appreciate that. I am a cosponsor of your 
bill, I think as you know. But Mr. Shaw has a bill that is 
considerably more expansive.
    Mr. Skelton. Yes, we understand that. And I compliment him 
and commend him for that. This is the Budget Committee, and as 
you know, it is a matter of what we can do in the political 
reality and to take three steps forward and rather than have a 
promise of four steps.
    I think his bill--the other gentlemen may correct me, but 
my understanding and recollection is that his bill is around an 
$8 billion price tag. I see people nodding. So ours is more 
modest, but I think ours does make a major step to get to the 
heart of the matter to keep our promise.
    You see, the administration, to its credit, has included a 
request in its total dollars to take care of the active duty 
folks, to beef that up as it should be. But it does not touch 
the retirees. We have taken a lot of years of these peoples' 
lives and in many cases they are disabled. They have given the 
best years of their lives, and I think we owe the retirees a 
major benefit through the legislation that we introduced.
    Mr. Moran. I appreciate that, Mr. Skelton. I missed the 
first part of your testimony but you are basically saying you 
need another $10 billion from what is in the budget here for 
the defense appropriation?
    Mr. Skelton. That is correct. There are three parts of my 
testimony. The first is the health care part. And because we 
were unable to cost out those two items that I mentioned, we 
have a figure of $910 million. And probably around a $2 billion 
total figure for the Abercrombie, Taylor, Skelton bill.
    Readiness is one that we need to shore up. I do not think 
that we have had enough hearings actually to glue together a 
total figure on that, but we know it is going to be 
substantial. Former Secretary of Defense testified the other 
day and his exact words were ``the procurement account.'' he 
limited his testimony that the procurement account should be a 
minimum--or ``at least'' was the phrase--at least $10 billion 
more to $20 billion. That was his high figure. In giving him 
all of the benefit of the doubt, I used the figure of $10 
billion.
    Mr. Moran. Thank you, Mr. Skelton. Thank you, Mr. Chairman.
    Mr. Chambliss. Mr. Bass.
    Mr. Bass. Thank you, Mr. Chairman, and thank you, Mr. 
Skelton, or Ike, for your testimony. I have great admiration 
for your expertise and understanding of the defense matters. As 
you know we served on the Intelligence Committee. I wish you 
were still there.
    I know you were probably one of the most knowledgeable 
Members of this body on this issue. I am just curious, and this 
is not a trick question. I just want to know how much effort is 
being undertaken to try to find items in the defense budget 
that you could cut or eliminate that are unnecessary so that 
some portion of this request could be paid for.
    Mr. Skelton. I think our committee does a pretty good job 
of that. I am being a little parochial, Mr. Bass, but I think 
we do a pretty good job. We do not take at face value every 
recommendation made. If you look at our history, we have cut a 
number of items.
    Of course there was an earthquake here last year when the 
Appropriations Committee, as you recall, cut the F-22. Of 
course there was finally a compromise on that. In the process 
of reviewing each of the procurement items, which is a major 
part of it, all of them are not funded and some are left out.
    I am personally concerned that we should add substantial 
money--and not to a billion dollars but over a period of time 
several million dollars--in 250- and 500-pound smart 
ammunition. The Kosovo conflict showed us with the 2,000 pound 
bombs with the JDAM systems on them, without exaggeration, can 
send a 2,000 pound bomb through a window of your choice.
    I am doing a lot of work personally, my staff and I, on 
urging 500 pound bombs and 250 pound bombs as opposed to just 
the 2,000. You can do a package for a 2,000, 500, or 250 pound 
bomb for $18,000 as opposed to a cruise missile at $1.2 
million. And they accomplish the same thing.
    So that is a roundabout answer to part of your question. I 
think that we do a good job in trimming, not fully funding but 
ramping up other areas such as ammunition.
    I have to credit Duncan Hunter who is chairman of the 
procurement subcommittee on understanding that over the last 
several years the Pentagon has sent over recommendations for 
ammunition way short of training rounds.
    To answer your question, I think we do a good job of 
gleaning the procurement accounts. I could go on and talk about 
personnel, but I think your question applied mostly to 
procurement.
    Mr. Bass. Thank you, Mr. Chairman.
    Mr. Chambliss. Mr. Bentsen.
    Mr. Bentsen. Thank you, Mr. Chairman. Mr. Skelton, I 
apologize for missing your testimony but you certainly--at 
least from this Member's perspective--are one of the most 
respected voices on either side of the aisle when it comes to 
U.S. defense policy.
    I gather from talking to staff that you believe the 
President's request of $306 billion for fiscal year 2001 is 
insufficient to the tune of about $12 billion. I heard you 
since I have been here lay out some of the reasoning for that.
    I have a couple of questions about that. The first is what 
this committee is going to have to grapple with as we go 
forward is--and perhaps we will do it next week. I hear we may 
markup a budget next week sometime--is at what level to set the 
discretionary baseline and whether or not we completely abandon 
the spending cap set in the 1997 Balanced Budget Act or go 
back.
    I think if we went back, we would be looking at caps of 
about $590 billion gross discretionary spending including 
defense and nondefense. Others have proposed a hard freeze at 
the level set last year of about $606 billion, I think, in 
total discretionary spending. The administration in their 
budget has proposed that we at least go forward from the fiscal 
year 2000 level and adjust for inflation.
    Of course as you know, all of this has dramatic impact on 
what size of a surplus we would be looking at over the next 5, 
10, and 15 years, and what you do with that surplus, whether 
you pay down debt, have a tax cut, fund new initiatives or do a 
combination thereof.
    I guess my question is sort of two part. If you could 
explain for the committee what the current U.S. defense posture 
is and why the need for continued increases in defense and why 
even in the post-cold war world where the U.S. is clearly the 
dominant military force in the world, why we must continue to 
increase defense spending at levels and do you believe that we 
have the correct defense posture?
    I am not asking that as a loaded question, I am asking it 
for the record because I think it is important that we have 
these discussions.
    Second of all, from your perspective on the defense side, 
how that fits in with our overall Federal fiscal policy. And 
now that the firewalls between defense and nondefense spending 
have gone away, you are quite familiar with those--you have 
been here for a while and been through those battles--how the 
Congress is going to reconcile all of this if we increase 
defense, which I think very well could be justified?
    If we set this very hard cap going forward, do we have to 
take it out of things like the FBI or do we take it out of the 
Department of Education? Or do we need to look at all of these 
programs in a broader sense?
    Mr. Skelton. Next question.
    Mr. Bentsen. I know you can answer all of those, Mr. 
Skelton.
    Mr. Skelton. First, as to the state of America's military, 
it is excellent. We are having recruiting problems, retention 
problems, but nevertheless the young men and young women are 
marvelous in what they are doing.
    That is not the bottom line. The bottom line is whether we 
can successfully carry out a defense policy, and that has been 
and should be the ability or to have the capability to fight 
and win two major regional conflicts. There is argument over 
that of course, but should we withdraw from that--and it almost 
happened in 1994 when Saddam Hussein was rattling his saber 
once again. The North Koreans started doing the same thing. The 
question was, heaven forbid, should we end up in two major 
conflicts and both of them, could we handle them. It would be 
difficult to do so, and I am sure that substantial supplemental 
appropriations would be requested to do so.
    Can we do it now? I think we are on the cutting edge of 
being able to do that now. I think that we should plan for 
that. You see, so many folks--once the Wall came down and the 
cold war ended, our traditional adversary, the Soviet Union, 
went away for all intents and purposes at least momentarily.
    But that also put us in a position of being the only 
superpower in the world. As a result we have, as you have seen 
and as I have seen, the mantle of responsibility in various 
areas whether you are speaking of Haiti, whether you are 
speaking of Panama, Kosovo, or Bosnia.
    And our mere presence is a deterrent. That is why I spoke a 
few moments ago about having a sufficient Navy to be present in 
different parts of the world. The only major exception now has 
been East Timor where to the credit of the Australians they 
took the lead on this. However, they could not have done that 
without our intelligence and logistics and communications.
    It did not take a lot of people, but a fair amount of 
dollars in those three areas. If we realize our position in the 
world and the fact that we really do bring stability as opposed 
to winning a war, and bring stability and have the capability 
of successfully prosecuting two major conflicts, I think it is 
going to take every bit of the dollars that I spoke of.
    I hope I answered both of your questions.
    Mr. Bentsen. You did. The only other thing and this is more 
of a rhetorical question that we have to answer--is given the 
responsibility of leadership that the U.S. has inherited and 
the dollar costs associated with that in our defense budget, we 
also have to weigh that as you know against our nondefense 
domestic needs and international needs.
    I think this is more for our own purposes, members of the 
panel, and ultimately the Members of the entire House have to 
take that into consideration, that we cannot rob Peter to pay 
Paul. And I guess even in the times of surplus, the firewall 
battles that you have been through since the 1980's when I was 
staff years ago continue on and maybe even will become more 
intense.
    Mr. Skelton. I do not have an easy answer to that. I can 
only tell you that second place does not count on the 
battlefield. Should we be forced into a conflict--or two, 
heaven forbid--second place does not count in either one of 
them. Firewalls, budget issues that are issues of the day today 
will vanish like vapor because the only thing that really 
counts is whether we can prevent a conflict or, should we be 
forced into one or two, successfully prosecute them. At the end 
of the day that is the best security for our country.
    Mr. Bentsen. Thank you, Mr. Chairman.
    Mr. Fletcher [presiding]. Are there any other Members who 
have questions? If not--Mr. Collins.
    Mr. Collins. Mr. Skelton, do you see within the next 3 
years the need for another round of BRAC?
    Mr. Skelton. Probably so. It would politically be very 
difficult to do. I know that those in the Pentagon are 
requesting it. The easy rounds have already come to pass.
    I wish to point out to my friends in the Pentagon that 
there is a statutory authority right now whereby they can 
choose 1, 2, 5, whatever bases they wish to close and do it, 
but they have to jump through the number of hoops.
    I remember very well when I first came to Congress in 1977, 
I was greeted with the fact that the brand new Secretary of 
Defense, Harold Brown, was going to close Richards-Gebaur Air 
Force Base in my district and he did it. But he followed the 
procedures and my folks, you bet they were unhappy. Did he 
succeed? Yes, he succeeded. That is not the only route for the 
Pentagon to follow.
    However, probably for them the less painful and maybe for 
everyone else less painful to have a series of base closings or 
BRAC. However, I might add this as a footnote. The dollars that 
were hoped to have been saved in the recent BRAC closings have 
not added up to what they thought they would save. However 
maybe they will over a protracted number of years. It will 
probably be a recommendation, a continuous recommendation; and 
we probably ought to look at it seriously in the future.
    Mr. Collins. Thank you, sir.
    Mr. Fletcher. Thank you, Congressman Skelton. We appreciate 
your testimony. If there are no further questions thank you 
very much.
    I ask unanimous consent that all Members of the House may 
have 5 legislative days to submit written statements in the 
committee record on the subject of the budget for fiscal year 
2000. Without objection, so ordered.
    [The information referred to follows:]

    Prepared Statement of Hon. George W. Gekas, a Representative in 
                Congress From the State of Pennsylvania

    Mr. Chairman, thank you very much for permitting me to testify at 
this important hearing. I applaud your efforts not only for your work 
on the Budget, and your successes in protecting the Social Security 
surplus, restraining excessive government spending, giving tax cuts to 
the American people, and dramatically paying down the Federal debt, but 
also for your efforts on behalf of an issue that is near and dear to my 
heart: preventing government shut-downs.
    As you know, H.R. 142, the Government Shutdown Prevention Act, 
removes the threat of the government shutting down due to an impasse in 
budget negotiations between Congress and the President. It provides for 
an automatic Continuing Resolution, at the previous year's spending 
level, to prevent the government from shutting down if an 
Appropriations bill has not been passed. This legislation has strong 
bipartisan support.
    Our efforts in this endeavor have brought us close to victory a 
number of times: in 1995, the Congress passed an automatic Continuing 
Resolution, but it was vetoed by President Clinton. Then, last year, 
your Committee marked up a far-reaching Budget reform package, which 
included the automatic CR provision. This bill, which was scheduled for 
Floor action, unfortunately was pulled at the last minute.
    As you know, this issue that has resonated very strongly with our 
Republican Colleagues. It seems that almost every year the Congress and 
the President go down to the wire in passing a budget, leaving Congress 
with little bargaining room against a President who is willing to shut 
the government down over his spending priorities. However, I must 
commend Speaker Hastert for his leadership in avoiding that predicament 
last year.
    This legislation has, unfairly, I believe, been criticized as an 
attack on the Appropriations Committee and an attempt to usurp their 
power. In fact, nothing could be further from the truth. Instead of 
usurping the power of the Appropriations Committee, this legislation 
would serve to weaken the bargaining power of the President in those 
late bargaining sessions (hence his veto of this provision in 1995). 
Further, it would give the Committee the extra time that it needs to 
work out the wide-range of issues, and the pressure of finishing by a 
time-certain deadline, that confront the Committee at the end of 
Session.
    Finally, let me commend the Budget and Appropriations Committee for 
the hard, thankless jobs that you have to do to ensure that the 
government's bills are paid on time. Your Committees have admirably 
withstood the pressure to delve into the Social Security surplus and 
have produced compromise spending bills that adequately fund the many 
priorities of the Republican House (and I particularly would like to 
thank you for your leadership and efforts to double the NIH budget), 
while walling off the Social Security surplus. That is a tremendous 
accomplishment, and those heroic efforts are indeed worthy of high 
praise.
    In closing, I would simply like to request that the Budget 
Committee once again at least consider this modest, but important, 
reform.
    Thank you for your time and indulgence.

   Prepared Statement of Hon. Paul E. Kanjorski, a Representative in 
                Congress From the State of Pennsylvania

    Mr. Chairman and Members of the Committee, thank you for allowing 
me to speak briefly about the environmental devastation suffered by 
eastern Pennsylvania, the current inadequacy of environmental mining 
reclamation policies to address this region's needs, and the urgent 
need for a comprehensive, regional approach to solving the problem. The 
opportunity for such an approach is contained in the Administration's 
budget request for $250 million in tax credit bonds that can be used to 
clean up the anthracite coal region in Eastern Pennsylvania. I urge you 
to include this item in the Budget Resolution for Fiscal Year 2001.
    Approximately 120,000 acres of land in twelve counties in eastern 
Pennsylvania bear the environmental scars of the anthracite coal mining 
industry from poor mining practices that took place more than 40 years 
ago prior to the adoption of environmental laws meant to reclaim the 
land. The U.S. Interior Department's Office of Surface Mining estimates 
that nearly $2 billion is necessary to restore the land and water of 
the anthracite region. However, only about $10 million per year is 
spent from the Federal Abandoned Mine Land Trust Fund in the anthracite 
region. At this slow pace, we will not remedy a critical environmental 
problem for centuries.
    More than 20 million people are affected by the quality of water of 
the Susquehanna and Delaware Rivers, which carry acid mine drainage 
from the anthracite region to the Chesapeake and the Delaware Bays, 
respectively. The U.S. Geological Survey estimates that contaminated 
streams from the anthracite region dump 740 tons of sulfate and 51 tons 
of iron into the Susquehanna River every day. The Susquehanna River in 
turn provides more than half of the freshwater flow into the Chesapeake 
Bay; the Environmental Protection Agency has determined that this acid 
mine drainage is the greatest source of industrial pollution in the 
Bay.
    Current environmental policy is based on either preventing 
pollution by regulation or providing funds to correct individual 
environmental problems. Like the Everglades, eastern Pennsylvania needs 
a long-term, comprehensive, regional environmental restoration program 
to correct the mistakes of the past. This is fundamentally an issue of 
fairness. Pennsylvania anthracite coal fueled the Industrial Revolution 
that made America the superpower it is today. Unfortunately, the 
physical scars left by the Industrial Revolution of the 19th and 20th 
Centuries have decreased our competitiveness in the Information Age of 
the 21st Century. By demonstrating that a single-purpose government 
corporation can undertake a sustained effort over a long period of 
time, we can serve as a model for other environmentally damaged regions 
of the country that seek to clean up this degradation.
    A comprehensive, regional approach would remedy this problem more 
quickly and significantly reduce the cost of cleaning up the land and 
water of the anthracite region. In January of this year, Representative 
Sherwood brought the Resources Committee to Scranton, Pennsylvania for 
a field hearing on this problem. At this hearing, I proposed 
establishing a federally authorized organization to undertake a 
comprehensive clean-up plan that would result in the complete 
environmental restoration of the region over thirty years using a self-
financing program that would recover the entire cost of the 
reclamation.
    Toward the goal of the comprehensive cleanup of the anthracite 
region, the Administration included, as part of the Better America 
Bonds, an additional $50 million that would be authorized for each of 
the 5 years beginning in 2001 for environmental assessment and 
remediation of property damaged by anthracite coal mining. The 
President's proposal of $250 million in tax credit bonds would begin to 
finance a major portion of the environmental renaissance of eastern 
Pennsylvania. By producing a certain and sustained dedication of 
resources, our area would be able to complete the long-term restoration 
plan that is necessary for success. Absent a bond issue of at least 
this amount, a comprehensive restoration effort would not--and has 
not--succeeded.
    Not only do I support this budget request, but Representatives 
Gekas, Holden and Sherwood support it as well. We will be forwarding a 
bipartisan letter to the Budget Committee to that effect in the next 
few days. I encourage the Budget Committee to give this request the 
full and fair consideration that it deserves.
    In closing, thank you again, Mr. Chairman, for allowing me to 
comment at this time. I look forward to continuing to work with you and 
your committee on this important environmental restoration matter.

    Mr. Fletcher. The next individual testifying, Congressman 
Dana Rohrabacher. We welcome you here to the budget committee 
and look forward to your testimony.

  STATEMENT OF THE HON. DANA ROHRABACHER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I thank 
all of you for the opportunity to testify before this committee 
on H.R. 142, The Government Shutdown Prevention Act.
    Mr. Chairman, it is time to give up the budgetary 
equivalent of a nuclear weapon or what might be referred to as 
mutually assured destruction. It is time to repeal for all time 
the threat of the government shutdown. It is time to say that 
we do not have to have the threat of doing something that hurts 
ourselves and hurts the American people, that everybody thinks 
is stupid just to give ourselves the incentive to do our job 
and to enact appropriation bills. I guess what I am saying is 
it is time to pass the Government Shutdown Prevention Act. We 
have been talking about this for a number of years, and I still 
do not understand why we have not acted upon it after the 
debacle of the last government shutdown.
    Mr. Chairman, whenever we propose the end--to end 
government shutdowns, we always hear the same thing, how can we 
pass appropriations bills without the threat of a government 
shutdown? One answer is that almost every year we somehow 
manage to enact one or more supplemental appropriation bills 
even though we know for a fact that the government will not 
shutdown if we do not pass them.
    But the larger answer is are our appropriation bills so 
badly written that the only thing worse than passing them is a 
totally irrational alternative of shutting down the government? 
I do not think so and I have more confidence in the 
appropriations process than that. Even a step toward sanity 
would be worthwhile; and if we can go in the right direction, 
we need to do so.
    The main reason that I support a 2-year budget cycle, which 
is a step in the right direction, is that it would mean at 
least every other year there would be no threat of a shutdown. 
If we can eliminate that threat half the time, why not go all 
of the way and eliminate the threat completely as far as I am 
concerned?
    I urge this committee to support H.R. 142 and it makes 
sense to set up the system where if there is an impasse, we are 
going to be able to go back and go back to last year's level 
without having disruptions of services or having people make 
decisions here, for example, in the wee hours of the morning. 
Instead we should handle ourselves more professionally, and 
that is what H.R. 142 is all about and I would urge it be 
adopted.
    Mr. Fletcher. Thank you, Congressman Rohrabacher. 
Obviously, you said going to a biannual budget would be one 
step of saying that we do not have to face that threat at least 
every other year. Let me ask you, the advantages of the 
Government Shutdown Prevention Act, how would that change the 
balance of power? I mean Congress constitutionally is given 
more of the power of spending and taxing. It may restore more 
of that to Congress which because of the threat to shutdown it 
seems like we sometimes have our hands tied toward the end and 
we do end up with those midnight bills. I wish you would 
elaborate a little bit on how that may change the shift in 
power regarding----
    Mr. Rohrabacher. It is going to make everybody more 
responsible. The fact is that right now we have the power, but 
we also have the responsibility. And we know that if by a 
certain date we do not act and if there is an impasse, that 
comes with the executive branch especially, that--I know what 
happened last year in terms of Republicans getting blamed for 
the shutdown.
    Who deserves the blame, the President or the Congress? I 
cannot tell you. All I can say is the American people were the 
losers. We are here trying to do a job for the people. Whether 
it is under this pressure that we are accepting appropriations 
bills that we should not accept, either that or whether we are 
shutting down the government and hurting people in the process, 
those are two bad alternatives.
    If we cannot reach an agreement, there is no reason--why 
with the executive branch, there is no reason why I cannot see. 
This does not shift power as far as I am concerned. There is no 
reason why we cannot take things back to last year's level and 
that would give us an incentive to try to find a reasonable and 
responsible new spending level. That is what we are talking 
about with appropriation bills, spending levels. I do not think 
it shifts power. I think it just helps us do our job.
    Mr. Fletcher. I agree with you and I appreciate that. I 
hope that we can come together as we look at real budget 
reform, I think it is important to look at this. We appreciate 
very much your testimony.
    Let me ask Mr. Bass, do you have any questions?
    Mr. Bass. No, I do not, Mr. Chairman, except to thank you, 
Congressman Rohrabacher, for coming out in favor of biannual 
budgets and appropriations which for many reasons, a few of you 
which you touched on, would be a great move forward for this 
Congress.
    Mr. Fletcher. Mr. Bentsen.
    Mr. Bentsen. I have a couple of questions. This is an issue 
that this committee has grappled over some. Mr. Nussle and Mr. 
Cardin headed a budget reform panel. We considered a bill that 
tries to address this to some extent. We had some debates on 
it, and I did not agree with the way the bill came out,--I do 
not think it was the same as what you are proposing, but to 
have some sort of a fail safe provision for continuing 
resolutions at a lower level than the previous year.
    We debated whether 80 percent, 70 percent, 60 percent was 
enough. My personal feeling is I think he set it low enough 
where it is painful enough to the Congress and the executive 
branch to get together, but not too painful that it hurts the 
people out on the street.
    I have a couple of questions though about your bill. It 
would provide for an automatic 1-year continuing resolution at 
the previous year's level, correct, beginning October 1 if 
there is no action, and of course it would be supplemented then 
by subsequently passed appropriation bill for that fiscal year.
    Mr. Rohrabacher. It could be what now?
    Mr. Bentsen. You subsequently could adopt an appropriations 
bill for the fiscal year?
    Mr. Rohrabacher. Sure.
    Mr. Bentsen. Would it only provide for funding levels or 
would it carry forward legislative riders that were included in 
the previous year's appropriation?
    Mr. Rohrabacher. You know, that is a good question. I am 
not sure.
    Mr. Bentsen. I raise that because one of the problems I 
have----
    Mr. Rohrabacher. Of course the last time--if the last 
appropriations bill is in place, until you pass something that 
supplants it I would imagine that it would.
    Mr. Bentsen. It is a legal question worth exploring. This 
does raise questions of balance of power between the executive 
and the legislative.
    It is interesting in my time in Congress that Congress has, 
in some instances, been trying to give power back to the 
executive on one hand and take it back with the other. I think 
that the line item veto was a perfect example of that. I know a 
lot of people thought that was on the basis of pork barrel 
spending.
    And I kept thinking of Richard Nixon and from my home 
state, Lyndon Johnson. They would not have used that for pork 
barrel spending, they would have used that for absolute power 
given the opportunity. I think you might concur with that as a 
Californian.
    But it worries me a little bit--I think your intentions are 
very, very good--but it worries me a little bit that we do not 
set some absolutes where the two branches because of the unique 
system of government that we have which I think is the best in 
the world, that we do not set some absolutes where you just 
have to sit down and make these decisions.
    And Congress needs to protect its turf, if you will, with 
respect to the power of the purse, the power to appropriate, as 
well as the power to legislate; which we do use from time to 
time the appropriations process as vehicle to legislate.
    In fact, I think you sit on the International Relations 
Committee. I sit on the Banking Committee. A lot of our 
respective committees' legislation ends up working its way 
through the appropriations process, it seems.
    It concerns me that we might be giving that up a little 
bit. The other point I want to make is with respect to the 2-
year budgeting--which I think is an interesting idea as well. 
And we have not spent much time on the committee on that, but 
it is something I think proponents need to be wary about--and 
that is that again while there are benefits of having a 2-year 
budget where you could spend the interim period actually 
reviewing executive branch execution of the budget and 
legislative policy contained in it--assuming we would actually 
do that--you also--the budget needs to be somewhat fluid.
    We go through a lot of supplemental process. We have things 
that change within a 1-year period. We obviously would have 
more things change in a 2-year period. If I look at my own 
State of Texas where we have biannual budgeting because the 
legislature meets biannually--we also have a mechanism where we 
have what is called the legislative budget board that is made 
up of the governor and the speaker and the lieutenant governor 
and 1 or 2 other members of the legislature. They in effect 
have the power to act as the legislature in State government in 
the interim period. And while they genuinely----
    Mr. Rohrabacher. Is that in the case of emergencies?
    Mr. Bentsen. Emergencies, reprogrammings, and whatnot. I 
think we ought to think at the Federal level long and hard 
before we set up a system that would in some respects give a 
tremendous amount of power to a smaller group of people than 
the House as a whole and the Senate as a whole.
    Mr. Rohrabacher. I think that is well stated. Obviously 
there has to be some provision for emergencies. We have to make 
sure that that emergency power does not evolve into a 
legislative power that we do not want to grant to a small 
clique.
    However, I have been here 11 years now. I worked in the 
executive branch for 7 years before that. I will say that I do 
not believe that this Congress--or that Congress is as engaged 
in oversight to the degree that is necessary for us to fulfill 
our responsibilities to the American people.
    Our job is not just spending money. Our job is not just 
paperwork. Our job is to see how this government is running and 
make sure it is running well and that things are not being done 
that are opposed to the will of the majority of the people as 
expressed through their elected representatives.
    And there is very little oversight taking place by this 
Congress. We spend most of our time talking about 
authorizations and appropriations and do not have the time to 
get out in the field and go and actually visit.
    We were just talking about the military a few moments ago. 
I do not know how many Members of this body actually get a 
chance more than once or twice a year to see certain military 
programs. We should see what this government is doing with the 
money and we should hear firsthand if somebody says this is a 
total waste of money, Congressman, why are we doing this?
    Believe me, they are not going to come to the Congress to 
do that because they have to go through all sorts of layers of 
their own overseers to get to us. I think we need a lot more 
oversight, and a biannual budget would do that. I think with 
this idea of preventing the government shutdown at least it 
would mean that we could talk seriously. I do not think that it 
would fundamentally change the nature of the way that we do 
things.
    Mr. Bentsen. I concur with you that we need to do more 
oversight. The authorization and appropriation process gives 
you some ability to do that. It ends up being the 
responsibilities of the Members, the committee chairs, et 
cetera. But again on the automatic CR, it also creates the 
potential opportunity for Congress to decide if we really do 
not want to make the tough decisions, we do not want to fight 
it out with the President, whoever that may be, we have a very 
easy fall back which is to just let the automatic CR go on and 
we will come back and fight another day. I am not always sure 
that the people are well served by that as well.
    There is that one other thing; I recall, you were in the 
Reagan administration at one point. I was staff up here during 
that time. President Reagan also had situations where he could 
not agree with the Congress and said I am not signing any 
appropriations bills and we are going to shutdown the 
government. I will give you this. I think given that experience 
and then with the 1995-1996 experience that the executive 
branch always wins the government shutdown battle. I do not 
know whether you agree with that or not.
    Mr. Rohrabacher. I worked with Reagan. I was his speech 
writer during that time. We were both staff for the players in 
that game. I seem to remember when that happened with Reagan, 
Reagan got blamed for the shutdown. Later on when it got shut 
down under Bill Clinton, the Republican Congress got blamed. I 
think the Republicans always get the short end of the stick.
    Mr. Bentsen. I do not want to be accused as a Reagan 
apologist, but I have to say Reagan did pretty well throughout 
that period. He went on to win pretty handily in 1984 as I 
recall. I think he lost one or two States, but otherwise he did 
pretty well. That just shows you the power of the executive 
branch to begin with.
    Mr. Rohrabacher. The points you are making, let's put it 
this way, I think we can always change back if things do not 
work out and there is unforeseen consequences and we have 
shifted power that it works practically in a way we did not 
want it to work, we can go back. We can sit here in another 
meeting and have a discussion and vote on it and say if this 
does not work out we are changing back to the old system. But 
it seems to me that there are so many flaws today with the idea 
that we are holding government employees and people who are 
just dependent on government checks, we are holding them 
hostage. And that makes no sense. If we have to enact what we 
know is bad legislation just to keep the government running, 
that does not make any sense.
    Mr. Bentsen. I do not want to delay the committee's time, 
but your point is well taken. But the other side of that would 
be that the fear of putting it to the Federal employees that I 
think was done in 1995 and 1996 should be an incentive to the 
Congress and to the executive branch to avoid such catastrophic 
situations, to sit down and do the work that is necessary, get 
the budgets done, fight it out, and make the decisions that you 
make in a democratic system of government with checks and 
balances between the branches as opposed to putting it off 
until another day and in some cases carrying forward bad 
legislative and fiscal policy that the previous administration 
had. You can play it flat, you can play it round, but those are 
the concerns that I have with it. I appreciate your testimony. 
Thank you, Mr. Chairman.
    Mr. Chambliss [presiding]. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    [The prepared statement of Dana Rohrabacher follows:]

   Prepared Statement of Hon. Dana Rohrabacher, a Representative in 
                 Congress From the State of California

    Mr. Chairman, thank you for the opportunity to testify before this 
committee on H.R. 142, the Government Shutdown Prevention Act.
    Mr. Chairman, it is time to give up the budgetary equivalent of the 
nuclear weapon. It is time to repeal for all time the threat of the 
government shutdown. It is time to say that we don't have to have the 
threat of doing something that hurts ourselves and the American people, 
that everyone agrees is stupid, just to give ourselves enough incentive 
to do our job and enact appropriations bills. It is time to pass the 
Government Shutdown Prevention Act.
    Mr. Chairman, whenever we propose the end of government shutdowns, 
we always hear the same thing: ``How can we pass appropriations bills, 
without the threat of a government shutdown.'' One answer is that 
almost every year we somehow manage to enact one or more supplemental 
appropriations bills, even though we know for a fact that the 
government will not shut down if we don't pass them. But the larger 
question is this: Are our appropriations bill so bad, that the only 
thing worse than passing them is the totally irrational alternative of 
shutting down the government? I, for one, have more confidence in our 
appropriations work than that.
    Even a step toward sanity would be worthwhile. The main reason that 
I support a 2-year budget cycle is that it would mean that at least 
every other year, there would be no threat of a shutdown. But if we can 
eliminate that threat half the time, why not go all the way and 
eliminate the threat completely? I urge this committee to support H.R. 
142.

    Mr. Chambliss [presiding]. Bob Filner.
    Thank you for being with us today, Bob. The floor is yours.
    Mr. Filner. Thank you, Mr. Chairman. I would like 
permission to enter my formal statement in the record, along 
with a document called the Executive Summary of the Independent 
Budget, which I will explain in a moment. I hope I can 
introduce that in the record for you.
    Mr. Chambliss. Without objection.
    [The prepared statement of Bob Filner follows:]

  Prepared Statement of Hon. Bob Filner, a Representative in Congress 
                      From the State of California

                let's craft a fair deal for our veterans
    Mr. Chairman and colleagues, I appreciate your kind invitation to 
testify today on the Fiscal Year Budget 2001. I will be speaking about 
the portion of the budget that funds programs and benefits for our 
nation's veterans.
    I am pleased that the Administration's budget for the year 2001 
recognizes that the men and women who have served in uniform deserve an 
adequate budget for the Department of Veterans Affairs (VA), and I 
believe that the efforts of many Members of the House VA Committee and 
the efforts of our veterans' service organizations, specifically in 
formulating The Independent Budget, have been instrumental in producing 
a much better budget proposal than last year. I want to acknowledge 
these efforts!
    The $1.4 billion increase in the health care budget will assure our 
aging and disabled veterans who need medical care--especially long term 
care, emergency care and specialized services--that their needs are a 
high priority. However, I join my colleagues and the authors of this 
year's Independent Budget in objecting to the proposal that $350 
million of new resources for medical care authorized by the recently-
passed Veterans Millennium Act be deposited to the Treasury. Funds 
collected from veterans for the provision of veterans' health care 
should be used to enhance the health care for veterans--not as a 
substitute for appropriated dollars.
    I also want to emphasize my continuing concern that the VA is not 
adequately meeting the benefit and health care needs of veterans who 
served in the Gulf war and who now suffer from various diagnosed and 
undiagnosed disabilities. It has been almost 10 years since the men and 
women of our Armed Services were sent to the Gulf! The veterans of the 
Gulf war are sick with illnesses whose causes and cures remain a 
mystery. We must not relax our efforts to fund necessary and 
appropriate research. I join the authors of the Independent Budget in 
supporting an increase in funding for VA medical research, and 
specifically request that the medical research budget be increased by 
$65 million as recommended in the Independent Budget and that at least 
$30 million of that increase be directed to research involving the 
health of Gulf war veterans.
    As our veteran population ages, the need for long term care 
increases. One means of providing access to such care is through the 
funding of State Veterans Homes. A new home will be opening in April in 
my Congressional District, and already there is a waiting list! I want 
other areas to have the same opportunity as the veterans in the San 
Diego region will have with the opening of this new home. Therefore, I 
am opposed to the proposed decrease in funding for State Homes and urge 
the Budget Committee to provide adequate funding for this
                           critical program.
    I am also pleased that this Administration has recognized what 
Members of Congress have known for years. Additional personnel are 
needed if the VA is to promptly and accurately adjudicate claims for 
compensation and pension benefits. This budget will help to provide a 
well-trained corps of adjudicators to replace those who are nearing 
retirement age. I want to emphasize that the continued loss of 
experienced adjudicators over the past 7 years together with an 
increased workload in the number of issues which must be decided in 
each claim have led to serious problems of quality and timeliness. The 
increased staffing in this budget is essential to stem the tide of 
deterioration in claims processing.
    As a former college professor, I recognize the value of a quality 
education for our nation's veterans. I am disappointed that no increase 
for the G.I. Bill is provided in the Administration's budget. The G.I. 
Bill currently provides far less than is needed to obtain an education 
at a public institution, and I support raising the basic education 
benefit. Just yesterday, I joined with The Partnership for Veterans' 
Education (a coalition representing a number of associations advocating 
on behalf of veterans) in calling, as a first step, for an increase in 
the basic monthly stipend from $535 to $975 a month.
    The Administration's budget proposal recommends paying full 
disability benefits to Filipino World War II veterans who reside in the 
United States. Currently, these brave veterans who were drafted into 
service by President Roosevelt receive only 1/2 of the amount received 
by their
    counterparts--U.S. veterans with whom they fought side by side to 
defeat our mutual enemy. I support this increase as an important step 
toward equity for Filipino World War II veterans.
    However, more is needed. Because Congress, in 1946, rescinded the 
health care benefits for most of these veterans, Congressman Gilman and 
I have introduced legislation, H.R. 1594, to provide access to VA 
medical facilities--both in the United States and in the Philippines--
for Filipino World War II veterans. Health care is a crucial need for 
these men who are now in their 70's and 80's! $30 million is all that 
is required to provide health care access to Filipino veterans, with 
the same priority status as veterans currently using the VA. I request 
that this amount be added to the Fiscal Year 2001 budget.
    As we honor our veterans during their lives, so must we honor their 
remembrance in death. The Administration's increase in funding for the 
National Cemetery System will improve the appearance of our cemeteries 
by a long-overdue and much needed renovation of grounds, gravesites, 
and grave-markers. I urge the Budget Committee to fund the National 
Cemetery Administration and the State Cemetery Grants at the levels 
recommended by the Committee.
    Again, may I say that the proposal before you represents a fine 
better starting point. I hope that my suggestions will be useful as the 
Members of this Committee work toward a budget that gives our nation's 
veterans a fair deal.

    [The information (Executive Summary of the Independent 
Budget) follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

STATEMENT OF THE HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Filner. Mr. Chairman, I am here to talk about veterans' 
problems. I am the ranking member of the Subcommittee on 
Benefits of the House Veterans Affairs Committee.
    I hope this committee will do what it can to make up for 
years of basically flatline budgets, real cost reductions, in 
our veterans programs that came out of the necessity of a 
balanced budget. Our veterans have paid a heavy price. They 
have paid their share of the price for a balanced budget.
    I think now that we have surpluses, it is time to renew our 
commitment to the contract that we have made with our veterans 
and begin to restore the health care and the other benefits 
that were promised and have been neglected.
    The Independent Budget, Mr. Chairman, is a document put 
together by virtually every veterans service organization that 
exists in America, primarily four major organizations, the 
AmVets, Disabled American Veterans, the VFW, and the Paralyzed 
Veterans of America, and supported by 200 or 300 other 
organizations. It is their consensus. It is a very analytical, 
responsible document.
    It says that we need this year $2.23 billion more than last 
year to just keep up with the veterans programs that we have 
promised, and to make some gain in some areas, which I will 
mention in a minute. It is not just saying, give us more money. 
They outline in a very precise form what programs should be 
funded and what areas are necessary.
    I will give a few examples in the time I have here, Mr. 
Chairman. We have just celebrated the 9th year of the Gulf war. 
We have tens of thousands, maybe more, in the hundreds of 
thousands, of veterans who have Persian Gulf war illness. We do 
not have a cure or a treatment.
    That is unacceptable for American veterans, that we cannot 
tell these veterans what is wrong with them or how to treat it. 
We should be putting the money in our budget for research into 
Persian Gulf war illness. We have not done it in the 
President's recommendations or the recommendations that have 
previously come out of the Veterans Affairs Committee.
    We have a new strain of Hepatitis C that has now become 
prevalent in our veterans. It is fatal. It is relatively new in 
our terms of understanding. We do not have sufficient funds, 
again, to research the treatment for Hepatitis C. It is hurting 
or potentially killing tens of thousands of our veterans.
    Our G.I. Bill for education benefits is not only a benefit 
for veterans, it could be a huge recruiting tool at a time when 
we are not meeting our recruitment goals. Yet, we are paying, 
for those who take advantage of the G.I. Bill for Education, 
$500 roughly a month as a stipend. It is far below what people 
get in AmeriCorps or various other programs that we have. It 
does not come near to half or a quarter of what is needed to go 
to college.
    There is legislation in the Congress to provide both for 
full tuition and for a doubling of the stipend. We believe in 
the Veterans Affairs Committee that we should take the first 
step and move the monthly stipend from $535 to $975 a month. 
That is just a first step. But we think we can do that this 
year within the budget. I hope you will look kindly on that. 
Again, that was not included in the President's budget when it 
came to us.
    I would just ask the committee to look through this, in 
health care, in benefits, in the care of our national 
cemeteries, in the government G.I. Bill. I will just end with 
this, Mr. Chairman. Veterans go into the VA hospitals and wait 
not only hours for the appointment that they have that day, but 
may have to wait 6 or 8 or 12 months for a specialty 
appointment.
    That is just not giving our veterans the quality care they 
need. When they submit a claim for disability or other claim, 
they may wait 2 years or more for the adjudication of that 
claim. That is unacceptable. This document gives us a way to 
begin to lower those waiting times to very reasonable times, 
and give our veterans the quality of both health care they need 
and the attention to their benefit claims that they deserve.
    One last item, Mr. Chairman. This committee has the power 
to remedy an injustice that has been with this country for more 
than 50 years. President Roosevelt in World War II drafted 
Filipinos into the Armed Services of America. They were then a 
territory of the United States. The Congress of 1946 took away 
the benefits that were promised as veterans to those who fought 
in that War.
    It is 54 years later, and we have not remedied that 
injustice. The veterans of the Philippines who fought in that 
war are heroes. They deserve the dignity and respect that we 
give to those who have given us our freedom. Almost all are in 
their late 70's, early 80's. They do not have a lot of time 
left in this world. We should honor them with the respect they 
deserve.
    We have a very doable, fiscally responsible bill in the 
hopper. Congressman Gilman, the chairman of the Committee on 
International Relations, and I have a bill, H.R. 1594, which 
gives health care to the Filipine veterans of World War II. In 
their 70's and 80's, they need it; they deserve it.
    I hope this committee will take a position that is 
supported by a majority of the Congress, but because of some 
key opposition the Chair of the VA committee, we have not been 
able to take this up. So I hope that this committee and this 
Congress can act on what the majority feels and give that 
benefit and that recognition that has so long been denied. I 
thank the Chair.
    Mr. Chambliss. Thank you very much for being here and being 
a strong voice for a group that you are absolutely right about. 
The fact is that we have allowed the benefits for our veterans 
to be eroded over probably 50 years, 54 years, since the end of 
World War II; and I know all of us here and at home, when we go 
home, and we have a sympathetic ear, but it is a difficult 
budget issue year in and year out. We appreciate your strong 
voice and the strong voice of Chairman Bob Stump on behalf of 
veterans.
    Let me just make sure I understand what your request is 
over the 00 budget.
    Mr. Filner. I am sorry, I should have said that, Mr. 
Chairman. It is in my formal statement.
    The Independent Budget requests just about $2.2 billion 
above the baseline. The President's request is $1.5 billion. We 
think that $700 million ought to be made up.
    Mr. Chambliss. Is the President's increase directed 
specifically at health care?
    Mr. Filner. Most of it is in health care. I do not want to 
underplay, by the way, the administration's budget, because 
last year they did submit a straight line budget--and the 
Congress upped that by roughly $1.5 billion. Most of the 
increase in the FY 2001 budget that the administration has 
submitted is in health care. It is absolutely needed, and I am 
glad they did it. But we have a ways to go to even keep up with 
the needs.
    Mr. Chambliss. OK. Thank you. Mr. Bentsen?
    Mr. Bentsen. Thank you, Mr. Chairman.
    Mr. Filner, again, I concur with the Chairman, you are to 
be commended for your efforts on behalf of America's veterans. 
I also concur with you with respect to Filipino veterans as 
well in your work on their behalf.
    I also would want to speak out, I have a lot of 
constituents who were in the Merchant Marines during the Second 
World War, and have not felt that they have received their fair 
consideration, because even though they were not necessarily on 
ships, or on military ships, they were often on ships that were 
in combat. Many gave their lives.
    In fact, a couple of years ago in Houston, we unveiled a 
memorial to members of the Merchant Marine who gave their lives 
during the Second World War, and would appreciate your 
committee's consideration with respect to that.
    I did want to ask you, with respect to your proposal for a 
plus-up of the VA budget, I met recently, earlier this week, 
with representatives from the DAV that were in town. They were 
saying that they felt that the President's request for the 2001 
health care portion of the VA budget needed to be plussed up 
about $600 million or so.
    Mr. Filner. About $500 to $600 million.
    Mr. Bentsen. In order to keep pace with what they think the 
demand is?
    Mr. Filner. Both to keep pace and to meet the new needs 
that arise. The Hepatitis C outbreak is a new area which was 
not forecast before. The Persian Gulf war illness is there with 
no real ability to address it. The population continues to age, 
and we know the costs continue to rise in long-term care.
    So it is to keep pace, but it is to also move into the 
areas that we have just neglected for so long because of these 
straight line budgets. You could do very well by just taking a 
look at this summary of the Independent Budget. They have done 
an incredibly good job on this, and it gives us the specifics 
and the confidence that this is a very analytical document. I 
think the Congress ought to adopt basically this budget as our 
budget.
    Mr. Bentsen. Thank you. Thank you, Mr. Chairman.
    Mr. Chambliss. Thanks.
    Now we will go on to our friend from Ohio, the Honorable 
Dennis Kucinich. We are glad to have you with us, Dennis. The 
floor is yours.

 STATEMENT OF THE HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Kucinich. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to be in front of the committee and 
to see Mr. Chambliss there, it is a great pleasure, and Mr. 
Bentsen.
    Mr. Chambliss. The size of the budget crowd has no 
reflection upon you, Dennis. It has more to do with us being 
out yesterday.
    Mr. Kucinich. Actually I come from a place where less is 
more. I want to say also that Mr. Bentsen and I both have 
something in common here. Our top staffers, who come from the 
same family, have just had a new baby, so congratulations to 
them. I just wanted to note that is why John Edgell is not with 
me at the moment.
    Mr. Bentsen. And we are hoping we can survive the maternity 
leave.
    Mr. Kucinich. That is true. It is a challenge for both of 
our offices.
    I am here this morning as someone who has had the 
opportunity to serve in government at every level. I have had a 
great deal of experience at the local level as a city 
councilman, clerk of courts, and mayor of the city of 
Cleveland, and then as a State Senator.
    In those capacities, I have had the opportunity to learn 
about the infrastructure needs of various communities. In 
particular, as mayor of Cleveland, Cleveland being one of our 
older industrial cities, I have seen the impact of an aging 
infrastructure.
    I know those are problems common to American urban areas, 
and even now to some of our older suburban areas. So, Mr. 
Chairman, Mr. Bentsen, I appreciate this opportunity to present 
what I think is a long-needed initiative to rebuild America's 
infrastructure.
    Every one of us is aware of the crumbling infrastructure, 
from deteriorating bridges to dilapidated and inadequate 
schools to substandard water treatment systems. Although our 
country is the wealthiest on the Earth, American children face 
the likelihood of learning math in a closet, bathroom, or gym 
for lack of adequate classrooms.
    Americans often wonder about the quality of their drinking 
water when they turn on the tap. American businesses have to 
pay higher transportation costs that eat into their investment 
capital and drive up prices. The size of the need is 
staggering.
    The American Society of Civil Engineers estimates that over 
$400 billion is required to repair roads, bridges, and transit. 
The Environmental Protection Agency and the States estimate 
that $137 billion is needed over 20 years to repair and provide 
adequate wastewater treatment systems, and another $120 billion 
for drinking water systems.
    Historical studies of public investment in the public 
infrastructure show that public investment has fallen to 
inadequately low levels as a percentage of the gross domestic 
product. They are still falling. Public investment seems to 
depress private investment, too. Worse still, business's fixed 
investment would be higher if public investment were also 
higher.
    Congress, as we know, has a number of programs to meet 
infrastructure needs. Some, like TEA-21, are large in size, but 
most infrastructure investment, about 85 percent, comes from 
State and local governments and reductions in State and local 
investment have been devastating.
    The budget resolution, I respectfully suggest, should 
include a Federal initiative to provide State and local 
governments with the funds needed to rebuild schools, bridges, 
and roads, water treatment and sewer systems, and for new 
school construction, mass transit systems, and expanding the 
information superhighway.
    The plan to make this happen, based on a model developed by 
the Jerome Levy Institute, would provide State and local 
governments with zero interest loans for infrastructure 
programs over the next 10 years. The principal of the loans 
would be repaid by the State and local governments in yearly 
installments, the duration of which would depend on the type of 
project. In no case, however, would it exceed 30 years. The 
cost of the program is the yearly cost of subsidizing the zero 
interest loans.
    In the first year, that cost would be $2.5 billion, and it 
would grow to a maximum of $15 billion per year after about 6 
years, at which time the repayments would keep replenishing the 
fund.
    State and local governments would decide how and whether to 
use the funds made available by this initiative. Congress would 
define eligible projects by type. Congress should require that 
one-fifth of such funds be used for school repair and school 
construction.
    Each State or local government would have access to about 
$185 per capita per year for 10 years for infrastructure 
improvements. Over the life of this initiative, State and local 
governments would have adequate funds available to optimally 
restore the infrastructure.
    For instance, a State like Georgia, for example, would have 
$13.9 billion made available under this proposal. Texas would 
have about $35.8 billion available.
    This proposal would leverage funds that would otherwise not 
be allocated for public infrastructure repair. This initiative 
would lower the cost to State and local governments of 
infrastructure repair projects, since the Federal Government 
would be lending funds at zero interest.
    Depending on prevailing interest rates, the cost to local 
and State governments would decrease by half. The projects 
would be chosen and administered by State and local 
governments.
    One of the benefits that occurs to me, as I have thought 
about this proposal, is that this could result in keeping down 
water and sewer rates, which often have to build as the 
requirement for subsidizing the repayment of bonds for 
improvements going to those rates.
    The cost to the Federal Government is only a fraction of 
the funds made available by the initiative, so I ask for your 
consideration of this proposal, and I believe that it is one 
way to begin to address the tremendous needs for infrastructure 
improvements in our cities and our States.
    I appreciate it, and I certainly welcome any questions.
    Mr. Chambliss. Thank you, Dennis.
    [The prepared statement of Dennis Kucinich follows:]

  Prepared Statement of Hon. Dennis J. Kucinich, a Representative in 
                    Congress From the State of Ohio

              rebuild america's infrastructure initiative
    Mr. Chairman, Ranking Member Spratt, members of the committee. 
Thank you for this opportunity to present a long needed initiative to 
rebuild America's infrastructure.
    Every one of us is aware of the crumbling infrastructure, from 
deteriorating bridges and roads, to dilapidated and inadequate schools, 
to substandard water treatment systems. Though the U.S. is the 
wealthiest nation on Earth, American children face a likelihood of 
learning math in a closet or bathroom or gym for lack of adequate 
classrooms. Americans must often wonder about the quality of their 
drinking water when they turn on the tap. American businesses must pay 
higher transportation costs that eat into their investment capital and 
drive up prices.
    The size of the needs is staggering. The American Society of Civil 
Engineers estimates that over $400 billion are required to repair 
roads, bridges and transit systems. The Environmental Protection Agency 
and the states estimate that $137 billion is needed over 20 years to 
repair and provide adequate wastewater treatment systems, and another 
$120 billion for drinking water systems. Historical studies of public 
investment in the public infrastructure show that investment has fallen 
to inadequately low levels, as a percentage of Gross Domestic Product. 
Worse still, falling public investment seems to depress private 
investment too. Business fixed investment would be higher if public 
investment were also higher.
    Congress has a number of programs to help meet infrastructure 
needs. Some, like TEA-21, are large in size. But most infrastructure 
investment (about 85 percent) comes from state and local governments, 
and reductions in state and local investment have been devastating.
    The budget resolution should include a Federal initiative to 
provide state and local governments with the funds needed to rebuild 
schools, bridges and roads, water treatment and sewer systems, and for 
new school construction, mass transit systems and expanding the 
information superhighway to underserved populations.
    The plan, based on a model developed by the Jerome Levy Institute, 
would provide state and local governments with zero interest loans for 
infrastructure programs for the next 10 years.
    The principal of the loans would be repaid by the state and local 
governments in yearly installments, the duration of which would depend 
on the type of project. In no case, however, would it exceed 30 years. 
The cost of the program is the yearly cost of subsidizing the zero 
interest loans. In the first year, that cost would be $2.5 billion, and 
it would grow to a maximum of $15 billion per year after about 6 years.
    State and local governments would decide how and whether to use the 
funds made available by this initiative. Congress would define eligible 
projects by type. Congress should require that one-fifth of the funds 
would be used for school repair and school construction.
    Each state or local government would have access to about $185 per 
capita per year for 10 years for infrastructure improvement. Over the 
life of this initiative, state and local governments would have 
adequate funds available to optimally restore the infrastructure. For 
instance, a state like California would have access to $60 billion for 
infrastructure investment, New York State would have $34.5 billion for 
infrastructure, Ohio would have $20 billion, South Carolina would have 
about $7 billion, and Wisconsin would have $9.4 billion.
    This proposal will leverage funds that would otherwise not be 
allocated for public infrastructure repair. This initiative would lower 
the cost to state and local governments of infrastructure repair 
projects, since the Federal Government would be lending funds at zero 
interest. Depending on prevailing interest rates, the cost to state and 
local governments would decrease by half. The projects would be chosen 
and administered by state and local governments. The cost to the 
Federal Government is only a fraction of the funds made available by 
the initiative.

    Mr. Chambliss. Let me make sure that I understand the 
numbers that you are talking about.
    Are you talking about making $400 billion available to 
States and local communities?
    Mr. Kucinich. Actually, what I am saying is that--I cited 
the American Society of Civil Engineers. They are saying that 
over $400 billion would be required to repair roads, bridges, 
and transit systems.
    This particular proposal would call for an amount to be 
made available that would be about $50 billion per year, and it 
would be $500 billion over the course of a 10-year program. 
That would be to loan that money interest-free. The cost to the 
government would be effectively the cost of subsidizing the 
loan.
    Mr. Chambliss. So what you are talking about is just 
putting an item in the budget over 10 years of $50 billion for 
loans to State and local governments, and we are not talking 
about a bond issue of any sort? This would be just kind of like 
a loan trust fund of some sort that would be a revolving 
account?
    Mr. Kucinich. The way the mechanism would work would be 
this. You have what we call the FBIM, which is what we call the 
Federal Bank for Infrastructure Maintenance. They would 
administer the program. I just want to go over this mechanism, 
because I think it will help answer the question. And it could 
be joined to either the Treasury Department's Federal Financing 
Bank, which extends loans to Federal agencies that at one time 
borrowed in their own name, or the Federal Home Loan Bank, 
which is the central banker for the Nation's thrift systems.
    The FBIM's purchases of the mortgages would be integrated 
into the Federal Reserve's open market operations, and the 
Federal Reserve, as you know, regulates the money stock by 
purchasing securities in the open market and setting the 
reserve requirement rates. Payment for the securities adds to 
the bank's reserve rates, or to the bank's reserves, and the 
banks multiply that as loans that add to the money supply.
    Under this plan, the Federal Reserve would use some of its 
funds through this FBIM to purchase mortgages on infrastructure 
projects, and then hold them, instead of simply buying other 
securities that it would have to buy anyway to expand the money 
supply.
    What would happen is the infrastructure plan would be 
integrated into the normal operations of the Fed, so Congress 
would have to authorize, in effect, the Fed would have to 
authorize the creation of the Federal Bank for Infrastructure 
Maintenance to administer the program. So that one would be to 
create the authorization of that, and the other one would be to 
create the pool of funds that would be available interest-free 
for repayment on the schedule that would be authorized under 
the Act.
    The budget resolution would simply have to authorize the 
yearly cost of subsidizing the interest, the first year of that 
cost would be $2.5 billion, and it would go to a maximum of $15 
billion per year. So you start off with the actual cost to the 
budget, which would be the cost of subsidizing the zero 
interest loans.
    Mr. Chambliss. The only thing I do not like about your 
presentation is that Texas gets twice as much money available 
to it as we in Georgia do. But I guess they have twice as many 
people, and that is why your formula came out like it did.
    Mr. Kucinich. Let me restate the formula, Mr. Chairman.
    Mr. Chambliss. Is it similar to the formula used for the 
Federal revenue-sharing program?
    Mr. Kucinich. It is a per capita formula. Most of the 
programs I think use per capita formulas. This formula is 
strictly per capita. It is based on population. That is why 
California under this would get about $60 billion.
    Mr. Chambliss. Mr. Bentsen?
    Mr. Bentsen. Thank you, Mr. Chairman. I think we would find 
that California got more money than both of us.
    Let me say, I think the way this would work is similar to 
other government lending programs, where there would be both a 
guarantee, so probably the funds--it would not be a direct loan 
from the government per se, but there would be a guarantee, and 
then there would be a subsidization of the interest, as well.
    The question is whether or not that would allow States to 
borrow at a tax-exempt rate or not. We have done things like 
this in the Clean Water Act in allowing States to set up 
revolving funds where the government subsidized the borrowing 
rates, and I think the gentleman raises a very interesting way 
of leveraging credit in order to meet an incredible demand, a 
backlog demand in the Nation's infrastructure that we have 
known about really since the early 1980's, and we have not 
caught up with; we have fallen behind.
    Mr. Kucinich. That is essentially what it does, it 
leverages credit.
    Mr. Bentsen. There are probably some issues, and the Levy 
Institute is quite good. There may be some issues with respect 
to the Federal Credit Reform Act of--I think that is right--of 
1993 that now also allows or requires, rather, the government 
to--and the Congress to set aside a reserve against any 
guarantee in our lending. That becomes a budgetary item, and 
something you might want to look at. But it is an interesting 
proposal.
    The only comment I would make, Mr. Chairman, for the 
Record, and I do not want my colleague from Ohio to take this 
the wrong way, he just happens to be the third person 
testifying, but we have had our colleague from Missouri come 
and say that we need $12 billion more in the defense budget. We 
had the gentleman from California, Mr. Filner, say we need to 
plus up the VA budget by about $1.5 billion.
    Mr. Kucinich brings a very interesting idea addressing a 
very real and serious economic problem in this Nation that 
would require additional funding, as well.
    I would just reiterate, in the time of plenty that we enjoy 
right now, we are going to see a lot of demands; and we have 
not even heard from Agriculture yet, which I know the gentleman 
from Georgia is particularly interested in, as well. So I think 
our work is cut out for us in drafting a budget just for the 
next fiscal year, let alone what we think the Nation's fiscal 
policy ought to be over the next 5 years or more.
    But I commend the gentleman for his presentation. I think 
he raises a very unique and interesting idea to address and, as 
I said, a very serious and real problem.
    Mr. Kucinich. If I may respond, Mr. Chairman, the issue of 
the impact on the economy is something that certainly you have 
to consider every time you hear a proposal.
    If you could think of it in terms of over a 10-year period 
to put $500 billion, half a trillion dollars, as a stimulus in 
infrastructure repair, I think that it would be a tremendous 
economic stimulus, particularly for those areas in the major 
cities where commerce is so important, and which really serve 
as the basis for carrying our commerce.
    I think there would be a substantial multiplier effect from 
the, as you describe it, leveraging of credit. So it is not 
only enhancing the investment, but it would really, I think, be 
great for the commerce of the country.
    But I respect your comments in the sense of the challenge 
which your committee is presented with in terms of assessing 
the worthiness of proposals and determining where the money is 
going to come from.
    Mr. Bentsen. If the gentleman will yield, and with the 
Chairman's indulgence, one other thing I failed to mention, you 
do raise a very interesting consideration, one that has been 
discussed in the Congress over the years. That is, whether or 
not, given at least the Federal role in State and local 
infrastructure, which is large, that we want to think of it 
more in terms of a capital project, capital projects, rather 
than ongoing projects, and fund it in a capital sense. Because 
not only are you talking about stimulus, but you are talking 
about capital investment in stock that has a very long life to 
it, and there is something to be said for funding that over a 
longer period of time or financing it over a period of time, 
rather than funding it up front, which is sort of how the 
Federal budget process has worked.
    So you raise an interesting point, and whether or not we 
move toward a capital budget in those types of projects.
    Mr. Kucinich. I appreciate the gentleman's comments. I 
thank the Chair for the opportunity to present this.
    Mr. Chambliss. Thank you for coming, and Mr. Bentsen is 
exactly right, we have everybody coming in with great programs 
wanting a little more money.
    I will be honest with you, that is the thing that I 
appreciate about this concept, that you are thinking outside 
the box. You are thinking of ways that we can reach down and 
help those folks in our States and in our local communities 
above and beyond just throwing money out there.
    It does cost money when you come up with new ideas and new 
concepts, but if we do not do that, then we are not serving our 
folks in the best way possible.
    So thank you for being here, and we are going to be working 
on this budget hopefully over the next couple of weeks. We are 
going to be putting something together so we can have it to the 
floor, so thank you for being here.
    Mr. Kucinich. I thank the Chair for his consideration. It 
is always a pleasure to see you. Thank you.
    Mr. Chambliss. The hearing is adjourned.
    [Whereupon, at 11:30 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
